No. _________________

IN THE

Supreme Court of the United States
--------------------------------MARK HENRY BENAVIDES,
Petitioner,
v.
THE STATE OF TEXAS,
Respondent.
--------------------------------On Petition For Writ of Certiorari To
The Texas Court of Criminal Appeals
--------------------------------PETITION FOR WRIT OF CERTIORARI
--------------------------------PAUL BELEW
Counsel of Record
OFFICE OF PAUL BELEW, PLLC
P.O. Box 1026
Decatur, Texas 76234
(940) 627-6400
pbelew@gmail.com
Attorney for Petitioner, Mark Henry Benavides
Member of the Bar of the Supreme Court of the United States

QUESTION PRESENTED
I.

WHETHER SECTION 20A.03 OF THE TEXAS PENAL
CODE IS UNCONSTITUTIONAL.

(i)

PARTIES TO THE PROCEEDING BELOW
Petitioner

Respondent

Mark Henry Benavides
TDCJ #02208651
Incarcerated
McConnell Unit
3001 South Emily Drive
Beeville, TX 78102

Meredith Chacon
SBN: 24034980
Jay Norton
SBN: 15105800
Jennifer Maritza Stewart
SBN: 24077250

Petitioner’s Counsel

BEXAR COUNTY DISTRICT
ATTORNEY'S OFFICE
101 West Nueva, Fifth Floor
San Antonio, Texas 78205
(210) 335-2311

Monica E. Guerrero
TBN: 00790801
5150 Broadway St # 114
San Antonio, TX 78209-5710
(210) 362-0162
Liza Rodriguez
TBN: 24002860
1923 Culebra Rd.
San Antonio, TX 78201
(210) 776-3747
Paul Belew
TBN.: 00794926
P.O. Box 1026
Decatur, Texas 76234
(940) 627-6400
(940) 627-6408 (facsimile)

(ii)

LIST OF RELATED PROCEEDINGS
State of Texas v. Mark Henry Benavides, 186th District Court, Bexar
County, Texas, Trial Court No. 2017CR7193 (April 6, 2018)
Mark Henry Benavides v. State of Texas, Fourth Court of Appeals,
San Antonio, Texas, No. 04-18-00273-CR, 2019 Tex. App. LEXIS
9468 (October 30, 2019)
In re Benavides, Texas Court of Criminal Appeal, No. PD-1221-19,
2020 Tex. Crim. App. LEXIS 216 * (March 11, 2020)

(iii)

TABLE OF CONTENTS
Question Presented
Parties to the Proceeding Below
List of Related Proceedings
Table of Contents
Table of Cited Authorities
Opinions Below
Jurisdiction
Statutes Involved
Statement of the Case
A. Factual Background
B. Proceedings Below
Reasons for Granting the Writ
I. SECTION 20A.03 OF THE TEXAS PENAL CODE
AS APPLIED IS UNCONSTITUTIONALLY BROAD
AND VAGUE
A. A Statute Must Give Clear Notice of the
Conduct Proscribed
B. Section 20A.03 of the Texas Penal Code As Applied
Is Unconstitutionally Broad
1. The Phrase "Human Trafficking" Has an
Established Meaning
2. The Term "Transport," As Interprted and Applied
by the Trial Court Created an Unreasonable and
Unintended Result
a. The Legislative History Shows the Legislature
Intended to Target Human Trafficking as
Commonly Defined and Understood
b. The Statute, As Aplied, Would Inexplicably
Subsume Other Crimes
3. The Statute Fails to Provide Meaningful Notice
4. The Staute, as Applied by the Court, Is So Broad
That it Is Capable of Subsuming Virtually Any
Crime Involving Sex

(iv)

i
iii
iii
iv
vii
1
2
3
4
4
4
5
5
5
6
6
7
8
10
10
11

5. By Making the Scope of the Crime So Encompassing,
its Give Unchecked Discretion to Police, Prosecutors
and Juries
12
Conclusion
13

(v)

Appendices
Appendix A

Denial of Petition for Discretionary Review by the
Texas Court of Criminal Appeals

Appendix B

Court of Appeals’ Judgment and Opinion

Appendix C

Texas Penal Code Section 20A.03

(vi)

TABLE OF CITED AUTHORITIES
United State Supreme Court Cases:
Connally v. General Constr. Co.,
269 U.S. 385 (1926)

5

Grayned v. Rockford,
408 U.S. 104 (1972)

6

Kolender v. Lawson,
461 U.S. 352 (1983)

5, 6

United States v. Wiltberger,
18 U.S. (5 Wheat.) 76, 95-96 (1820)

6

FEDERAL DISTRICT AND CIRCUIT COURTS:
King v. United States,
595 F.3d 844 (8th Cir. 2010)
Boykin v. State,
818 S.W.2d 782 (Tex. Crim. App. 1991)
Ritz v. State,
533 S.W.3d 310
(Tex Crim. App. 2017) (per curiam)
(Keller, J. Dissenting)

6
11

9, 10, 11, 12

TEXAS COURTS OF APPEALS:
Ritz v. State,
481 S.W.3d 383 (Tex. App.–Austin 2015)

11, 12

TEXAS STATUTES:
TEX. PEN. CODE, § 20A.03 (2018)
(vii)

8, 10, 11

LEGISLATIVE MATERIALS:
Senate Research Center, Bill Analysis,
S.B. 24, 82nd Leg., R.S. (August 2, 2011)
Senate Transcript, (March 23, 2011)

8
8, 9

TREATISES:
George S. Yaconbiah, Heather J. Clawson. & Nicole
Dutch. An Examination of Law Enforcement Responses
to Human Trafficking in the United States:
A Compliance Assessment of U.S. Obligations under
Customary and Conventional International Law,
15 U.C. DAMS J. INT'L L. & POLICY 157 (2008)
Jennifer Mason McAward, The Thirteenth Amendment,
Human Trafficking, and Hate Crimes, SEATTLE
UNIV. L.R., Vol. 39

7

6, 7

Kelly E. Hyland. The Impact of the Protocol to Prevent
Suppress and Punish Trafficking in Persons, Especially
Women and Children. 8 HUM. RTS. BRIEF 30 (2001)

7

Mohamed Y. Mattar, Interpreting Judicial Interpretations
of the Criminal Statutes of the Trafficking Victims
Protection Act: Ten Years Later JOURNAL OF
GENDER, SOCIAL POLICY & THE LAW, Vol. 19,
Issue 4, 1248-49 (2011)

7

Texas Human Trafficking Prevention Task Force,
INTRODUCTION TO HUMAN TRAFFICKING:
A GUIDE FOR CRIMINAL JUSTICE PROFESSIONALS
(September 2013)

6

Tom Obokata, TRAFFICKING OF HUMAN BEINGS FROM
(viii)

A HUMAN RIGHTS PERSPECTIVE: TOWARDS A
HOLISTIC APPROACH 10–13 (Martinus Nijhoff

Publishers 2006)

U.S. Dep't of State, TRAFFICKING IN PERSONS REPORT (2007)

(ix)

7
7

OPINIONS BELOW
The Texas Court of Criminal Appeals refusal of Petition for
Discretionary Review is available at 2020 Tex. Crim. App. LEXIS
216 and in Appendix III. The Court of Appeals for the Fourth
Supreme Judicial District of Texas’ decision is unpublished, but is
available at 2019 Tex. App. LEXIS 9468, and its Opinion and
Judgement is attached as Appendix II.

(1)

JURISDICTION
This Court’s jurisdiction is invoked under 28 U.S.C. § 1257. The
decision appealed was rendered by the Texas Court of Criminal
Appeals, the highest court of Texas in which a decision could be had.
The validity of a statute of Texas is drawn in question on the ground
of its being repugnant to the Constitution, treaties, or laws of the
United States, or where any title, right, privilege, or immunity is
specially set up or claimed under the Constitution or the treaties or
statutes of, or any commission held or authority exercised under, the
United States.

(2)

STATUTES INVOLVED
United States Constitution:
Fifth Amendment to the United States Constitution:
No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a
Grand Jury, except in cases arising in the land or naval forces, or
in the Militia, when in actual service in time of War or public
danger; nor shall any person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor be deprived
of life, liberty, or property, without due process of law; nor shall
private property be taken for public use, without just
compensation.
Sixth Amendment to the United States Constitution:
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the State and
district wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defence.
Texas Statutes:
Texas Penal Code Section 20A.03
(See, Appendix I).

(3)

STATEMENT OF THE CASE
A. Factual Background:
Mr. Benavides was a Texas attorney practicing law for almost
sixteen years -- primarily criminal law. R.R. 9:171:4-18. He
specifically concentrated on misdemeanors and some state jail
felonies and drew a substantial portion of his practice from court
appointments. R.R. 9:211:24-212:4; 212:21-213:23.
Mr. Benavides engaged in relations with a number of women.
See, in passim. Specifically, during the guilt innocence phase, six
women testified that Mr. Benavides had relations with them at times
when he was representing them in pending criminal matters and each
averred that Mr. Benavides engaged in conduct that could be
considered coercive.
Defendant Mark Henry Benavides was originally indicted in
Cause Number 2016CR3810 for Compelling Prostitution. Five
indictments later, he was charged in 2018CR2355 with six counts of
the offense of Continuous Trafficking of persons in violation of
Texas Penal Code section 20A.03. C.R. 6-7.
B. Proceedings Below:
On March 26, 2018 the case proceeded to trial and on April 3,
2018 the jury found Mr. Benavides guilty on all six counts assessing
his punishment at eighty (80) years confinement in the Texas
Department of Criminal Justice Institutional Division on each count.
R.R. 1:1:1; 7:187:3-188:4; 10:124:9-125:18. A Judgment was
entered, Mr. Benavides' Motion for New Trial was overruled and the
case was appealed to the Fourth Court of Appeals. C.R. ; 127:9-22;
129:22-130:1; 193-197, 193. In that appeal, Mr. Benavides raised
four issues: (1) Whether the court erred in admitting the testimony
of a State expert; (2) Whether the court erred in refusing to grant a
mistrial when a juror fainted during the proceedings; (3) Whether the
court erred in failing to give an accomplice immunity instruction;
(4)

and (4) Whether Tex. Pen. Code section 20A.03 was
unconstitutional as applied.
The Fourth Court of Appeals affirmed the trial court's judgment
in a Memorandum Opinion filed on October 30, 2019. See,
Appendix II. A Petition for Discretionary Review was filed on
January 2, 2020. In that Petition, Mr. Benavides raised the issue of
whether Tex. Pen. Code section 20A.03 was constitutional as applied
by the trial court. On March 11, 2020 the Texas Court of Criminal
Appeals denied Mr. Benavides’ Petition. See, Appendix III. This
Application for Writ of Certiorari follows.
REASONS FOR GRANTING THE WRIT
I. SECTION 20A.03 OF THE TEXAS PENAL CODE AS
APPLIED IS UNCONSTITUTIONALLY BROAD AND
VAGUE.
A. A STATUTE MUST GIVE CLEAR NOTICE OF THE CONDUCT
PROSCRIBED.
A criminal statute must comport with the requirements of Due
Process. A statute violates due process and is void for vagueness
when "men of common intelligence must necessarily guess at its
meaning and differ as to its application," thus denying them fair
notice of the proscribed conduct. Connally v. General Constr. Co.,
269 U.S. 385, 391 (1926). More specifically, a statute must be
sufficiently clear as to provide notice and guidance to ordinary
citizens of what conduct is prohibited and it also must define the
offense with sufficient specificity as to limit law enforcement,
prosecutors and juries from engaging in unbridled arbitrary
enforcement. The Court in Kolender v. Lawson wrote:
... the void-for-vagueness doctrine requires that a penal statute
define the criminal offense with sufficient definiteness that
ordinary people can understand what conduct is prohibited and in
a manner that does not encourage arbitrary and discriminatory
(5)

enforcement. ... Although the doctrine focuses both on actual
notice to citizens and arbitrary enforcement, we have recognized
recently that the more important aspect of the vagueness doctrine
"is not actual notice, but the other principal element of the
doctrine — the requirement that a legislature establish minimal
guidelines to govern law enforcement." Smith, 415 U. S., at 574.
Where the legislature fails to provide such minimal guidelines, a
criminal statute may permit "a standardless sweep [that] allows
policemen, prosecutors, and juries to pursue their personal
predilections."
461 U.S. 352, 357-58 (1983); see also Grayned v. Rockford, 408
U.S. 104, 108-109 (1972).
In cases where ambiguity exists, the Rule of Lenity (strict
construction) holds that with respect to criminal laws any ambiguity
must be strictly construed against the government. United States v.
Wiltberger, 18 U.S. (5 Wheat.) 76, 95-96 (1820); King v. United
States, 595 F.3d 844, 851-52 (8th Cir. 2010).
B. SECTION 20A.03 OF THE TEXAS PENAL CODE AS APPLIED
IS UNCONSTITUTIONALLY BROAD.
1. The Phrase "Human Trafficking" Has an Established
Meaning.
The phrase "Human Trafficking" has a well established and
accepted meaning from which this interpretation of the Texas statute
seriously deviates. See, e.g., Texas Human Trafficking Prevention
Task Force, INTRODUCTION TO HUMAN TRAFFICKING: A GUIDE FOR
CRIMINAL JUSTICE PROFESSIONALS (September 2013); Jennifer
Mason McAward, The Thirteenth Amendment, Human Trafficking,
and Hate Crimes, SEATTLE UNIV. L.R., Vol. 39, 831. During
hearings on the Federal Trafficking Victims Protection Act, a State
Department official testified, “[a] trafficking scheme involves a
continuum of recruitment, abduction, transport, harboring, transfer,
sale or receipt of persons through various types of coercion, force,
(6)

fraud or deception for the purpose of placing persons in situations of
slavery or slavery-like conditions." McAward, SEATTLE UNIV. L.R.,
at 831-32. Human Trafficking is consistently referenced as modern
day slave trading.1 In other words, it involves a conspiracy -- more
than a single defendant acting alone.
2. The Term "Transport," As Interpreted and Applied
by the Trial Court, Created an Unreasonable and
Unintended Result.
There can be little doubt that the conduct Mr. Benavides was
charged with could be characterized as a violation of the Prostitution
statute, or even potentially the crime of Compelling Prostitution.
Just as one example, there was abundant testimony that Mr.
Benavides traded legal services for sexual relations. See, e.g., R.R.

1

See, e.g., Mohamed Y. Mattar, Interpreting Judicial
Interpretations of the Criminal Statutes of the Trafficking
Victims Protection Act: Ten Years Later JOURNAL OF
GENDER, SOCIAL POLICY & THE LAW, Vol. 19, Issue 4, 124849 (2011) (and numerous sources cited therein); Kelly E.
Hyland, The Impact of the Protocol to Prevent Suppress and
Punish Trafficking in Persons, Especially Women and
Children, 8 HUM. RTS. BRIEF 30 (2001); George S.
Yaconbiah, Heather J. Clawson. & Nicole Dutch, An
Examination of Law Enforcement Responses to Human
Trafficking in the United States: A Compliance Assessment of
U.S. Obligations under Customary and Conventional
International Law, 15 U.C. DAMS J. INT'L L. & POLICY 157
(2008); U.S. Dep't of State, TRAFFICKING IN PERSONS
REPORT (2007); Tom Obokata, TRAFFICKING OF HUMAN
BEINGS FROM A HUMAN RIGHTS PERSPECTIVE: TOWARDS A
HOLISTIC APPROACH 10–13 (Martinus Nijhoff Publishers
2006) (explaining the historical background of slavery and
how the origin of human trafficking relates to the history of
slavery).
(7)

6:10:20-11:13; 9:80:14-18; 5:96:17-22 cf. 5:116:18-19; 117:17120:7. What transformed the crime of prostitution into the first
degree felony of Continuous Human Trafficking carrying a twentyfive year minimum sentence was the fact that he drove the women to
a hotel where he and they had relations.
To be clear, he did not drive them to another town. He did not
drive them to a remote location to separate them from their homes or
families. He did not deliver them to co-conspirators or house them in
a an environment where they would be forced to labor for his benefit
-- he drove them a few miles to a hotel. See, in passim.
a. The Legislative History Shows the Legislature
Intended to Target Human Trafficking as
Commonly Defined and Understood.
The Court's application of Section 20A.03 resulted in a crime
which the Texas Legislature did not intend. This is true for two
independent reasons. First, it is inconsistent with the legislative
history. Second, it renders most of the predicate crimes meaningless.
The Texas crime of Continuous Human Trafficking was one in a
series of laws enacted as part of an ongoing initiative to counter
human trafficking. The first paragraph of the Bill Analysis of SB 24
explains that "Human trafficking is the illegal trade of human beings
and is a modern-day form of slavery. Human trafficking is a criminal
enterprise frequently cited as the second-largest criminal industry in
the world." Senate Research Center, Bill Analysis, S.B. 24, 82nd
Leg., R.S. (August 2, 2011) (first paragraph) (emphasis added). In
the Senate Transcripts the crime is again referred to as a "modern day
form of slavery." Senate Transcript, 42-43 (March 23, 2011). In a
discussion between state Senator Hinojosa and Senator Van De Putte
of SB 24 and HB 3000, Sen. Hinojosa commented that Human
Trafficking is "a very serious problem that we have all along the
border." Senate Transcript, 44 (March 23, 2011). Senator Van De
Putte then commented "that trafficking victims, it's for the purpose of
a profit, for forced labor or forced sex trade. Senate Transcript, 44(8)

45 (March 23, 2011). She then added, "... in just last year we had
over 139 rescued children, these are children who are being
trafficked for the sex trade industry and that's in our state. And so
what we want to do is say, you know, Texas is open for business and
that we're very proud of. But this business is a business of greed and
of profit." Senate Transcript, 46 (March 23, 2011).
Turning specifically to the bill on Continuous Human
Trafficking, Senator Van De Putte noted the bill "is reserved for the
worst offenders of human trafficking" and then explained,
"[m]embers, this is a very strong bill but it's one that we feel merits
approval because this is a heinous crime, in particular selling of a
child for the purposes of human trafficking either into forced labor
or the forced sex slave industry." Senate Transcript, 92 (March 23,
2011) (emphasis added).
In enacting this particular statute, the Texas Legislature was
targeting Human Trafficking as traditionally and commonly defined
and understood. It specifically was targeting a crime that was
conspiratorial and involved multiple actors.
One of the few cases to come before the Texas Court of Criminal
Appeals discussing this statute was Ritz v. State, 533 S.W.3d 302,
314 (Tex Crim. App. 2017) (per curiam). Justice Keller, writing a
dissent in Ritz v. State examined both the legislative history behind
the statute and its express language. He wrote:
If human trafficking is the illegal "trade" of human beings, then it
follows that there must be at least two individuals, other than the
victim or victims, who are involved. With only one individual, a
"trade" cannot take place. There must be at least one person who
traffics the victim and at least one other person who exploits the
victim in some other way, by, for example, committing a sex
offense against the victim.
This construction of the statute is further supported by the
consequences of construing the trafficking statute to allow a
(9)

person to be punished as both trafficker and exploiter when no
one else is involved in committing an offense against the child.
One obvious consequence is that such a defendant would be
criminally liable under both subdivisions (7) and (8), because he
would be trafficking the child and causing the child to be a
victim of a sex offense in accordance with subdivision (7) and he
would be engaging in sexual conduct with a trafficked child in
accordance with subdivision (8). This overlap between
subdivisions is not by itself a serious concern, but more serious
concerns do inhere in the definition of "traffic."
As I have explained above, broadly construing the various
methods of traffic (transport, entice, etc.) in conjunction with
construing subdivision (7) to apply when there is only a single
perpetrator would create results that can at best be described as
odd, and at worst as absurd.
Ritz v. State, 533 S.W.3d 302, 314 (Tex Crim. App. 2017) (per
curiam) (Keller, J. Dissenting). (citations omitted).
It is difficult to read the legislative transcripts and believe that the
legislature intended the law to apply to a lone defendant who drives a
woman to a hotel and then coerces her into to having relations with
him.
b. The Statute, As Applied, Would Inexplicably
Subsume Other Crimes.
Second, as noted below, under this application of the Continuous
Trafficking Statute, virtually any crime can be elevated to Human
Trafficking and, in cases involving multiple instances, be
transformed into a felony carrying immense consequences. See infra
at ?.
3.

The Statute Fails to Provide Meaningful Notice.

Section 20A.03 as applied fails to give clear and meaningful
(10)

notice of the exact parameters of the conduct proscribed. This is true
for several reasons. First, it misuses (or substantially re-defines) an
accepted phrase or crime -- Human Trafficking. No longer is this a
crime limited to conspiracies, separation of victims from their home
and support, modern slavery, etc. Indeed, even if one had followed
the debates or inquired into the legislative intent of the statute (which
was consistent with the accepted meaning of Trafficking), one could
not foresee this application of the statute.
The Court of Appeal in Ritz v. State observed, "We agree that
Ritz's conduct, however reprehensible it may have been, does not
constitute what would ordinarily be considered 'human trafficking'
because there were no allegations in this case of organized crime,
prostitution, or forced labor. Ritz, 481 S.W.3d at 386 (citations
omitted).
Second, the potential application is so broad, the reasonable
person would not foresee this use. To the contrary, the ordinary
person must assume absurd meanings and applications. Ritz, 533
S.W.3d at 310 (Keller, J. Dissenting). Since absurd applications of a
statute are to be rejected, a reasonable person could not foresee the
instant application of the statute. See, e.g., Boykin v. State, 818
S.W.2d 782, 785 (Tex. Crim. App. 1991). Third, the fact that Mr.
Benavides was originally indicted on in May of 2009 on charges of
compelling prostitution (Cause Number (2016CR3810) and that the
charge was not changed until February of 2018 strongly indicates
that reasonable minds were unsure for years as to the application of
Section 20A.03. Both the Court of Appeals and the Dissent in the
Court of Criminal Appeals in Ritz acknowledged that the language of
the Statute was overly broad. The fact that the statute departs
significantly from the traditional definition and understanding of
Human Trafficking further adds to the confusion created.
4. The Statute as Applied by the Court Is So Broad That
it Is Capable of Subsuming Virtually Any Crime
Involving Sex.

(11)

Under the trial court's application of the Continuous Human
Trafficking Statute, if a "client" gives a ride to a prostitute to their
agreed destination -- even if it is merely to turn the corner and park - the crime of prostitution is then transformed into Human
Trafficking. The Ritz court correctly acknowledged that this
understanding of "trafficking is so broad that nearly every adult who
has sex with a minor may now be prosecuted as a human trafficker" - now the same is true in adult cases. Ritz v. State, 481 S.W.3d 383,
385-86 (Tex. App.–Austin 2015).
Justice Keller, in his dissent in Ritz, held that the law did produce
absurd results and argued that the broad interpretation must be
abandoned and Ritz convicted on the lesser included offense. Ritz,
533 S.W.3d at 310 (Keller, J. Dissenting). He contended that any
interpretation "[r]endering most punishment provisions for sex
offenses superfluous is an absurd result." Ritz, 533 S.W.3d at 313
(Keller, J. Dissenting).
5. By Making the Scope of the Crime So Encompassing,
This Interpretation Gives Unchecked Discretion to
Police, Prosecutors and Juries.
In both Ritz and here, it is apparent that the incidental act of
using a conveyance of any kind can now be used under this
interpretation of the law to elevate virtually any of the predicate
crimes to Human Trafficking. This provides no guidelines for law
enforcement and encourages "arbitrary and discriminatory
enforcement." Any predicate crime can be elevated on a whim -- and
if the act occurred three or more times in a period of thirty or more
days, the crime can be elevated to Continuous Trafficking.
This gives unchecked authority to law enforcement and
prosecutors to elevate any predicate crime in such circumstances.
Nothing in the legislative history, nor in the Federal law that grew
out of the same campaign, warrants a belief that this was the
intention of the legislature. Indeed, it is unprecedented. The result is
a virtually unbridled discretion to transform a class B misdemeanor
(12)

into a felony, or a "super-felony" carrying a minimum of twenty-five
years incarceration.
The law places no limitations nor restraints on its application
leaving law enforcement, prosecutors and juries free to drastically
increase the penalty range of a crime, merely based on the incidental
use of any form (taxi, bus, horse, etc.) of transportation. Thus in a
case that is politically charged or that garners the attention of the
media (as in the instant case), the severity of the charge can be
elevated based on who the defendant is, rather than on the actual
conduct charged.
CONCLUSION
The law as applied in the trial court is inconsistent with both the
common meaning of the phrase "Human Trafficking"and with the
legislative intent of the statute. A reasonable person would not
foresee the application of the statute in the case below. An informed
individual following the legislative debates would similarly be
unable to foresee this application. Independently, the way in which
the statute was construed leads to absurd results. It transforms
misdemeanor conduct into felony conduct based on incidental
conduct and it creates a confusing structure in which a single actor
can be trafficker an the exploiter. Furthermore, it potentially
subsumes almost all predicate crimes based on the same incidental
conduct -- that transportation of any kind across nay distance took
place. Finally, it confers on law enforcement and prosecutors
unchecked discretion to arbitrarily, and dramatically, change the
severity of a crime in a broad range of cases.
WHEREFORE, PREMISES CONSIDERED, Petitioner
respectfully prays that this Court issue a Writ of Certiorari in the
instant case and for such further and other relief to which Petitioner
my show himself to be entitled.
Respectfully submitted,

(13)

BY: /s/ Paul Belew
Paul Belew
Texas Bar No.: 00794926
LAW OFFICE OF PAUL BELEW, PLLC
P.O. Box 1026
Decatur, Texas 76234
(817) 336-7575
(817) 336-2597 Facsimile
pbelew@gmail.com

(14)

APPENDIX A
DENIAL OF PETITION FOR
DISCRETIONARY REVIEW
BY THE TEXAS
COURT OF CRIMINAL APPEALS

(15)

Neutral
As of: May 22, 2020 10:12 PM Z

In re Benavides
Court of Criminal Appeals of Texas
March 11, 2020, Decided
PD-1221-19
Reporter
2020 Tex. Crim. App. LEXIS 216 *

MARK HENRY BENAVIDES

Notice: DECISION WITHOUT PUBLISHED OPINION

Prior History: [*1] FROM BEXAR COUNTY - 04-1800273-CR.

Benavides v. State, 2019 Tex. App. LEXIS 9468 (Tex.
App. San Antonio, Oct. 30, 2019)

Judges: JUDGE RICHARDSON DID NOT
PARTICIPATE.

Opinion
APPELLANT'S PETITION FOR DISCRETIONARY
REVIEW REFUSED. JUDGE RICHARDSON DID NOT
PARTICIPATE.

End of Document

APPENDIX B
COURT OF APPEALS'
JUDGMENT AND OPINION

Fourth Court of Appeals
San Antonio, Texas
MEMORANDUM OPINION
No. 04-18-00273-CR
Mark Henry BENAVIDES,
Appellant
v.
The STATE of Texas,
Appellee
From the 186th Judicial District Court, Bexar County, Texas
Trial Court No. 2017CR7193
Honorable Dick Alcala, Judge Presiding
Opinion by:

Beth Watkins, Justice

Sitting:

Sandee Bryan Marion, Chief Justice
Luz Elena D. Chapa, Justice
Beth Watkins, Justice

Delivered and Filed: October 30, 2019
AFFIRMED
A jury found appellant Mark Henry Benavides guilty of six counts of continuous trafficking
of persons and assessed punishment at eighty years’ confinement for each count. On appeal,
Benavides contends the trial court erred by admitting certain witness testimony, denying his
request for a mistrial, and failing to include an accomplice witness immunity instruction. He also
challenges the constitutionality of the statute making continuous trafficking of a person a criminal
offense. We affirm the trial court’s judgment of conviction.

04-18-00273-CR

BACKGROUND
The San Antonio Police Department investigated Benavides, a criminal defense attorney,
after a woman alleged he forced her to have sex with him in exchange for legal services. During
the investigation, a detective met with other women who made the same allegations. The women
alleged that Benavides, who was their attorney, met with them—usually at their homes—to discuss
their cases, then drove them to a motel to have sex. The women alleged Benavides made them
have sex with him on multiple occasions and recorded the sexual encounters despite their
objections.
The investigation ultimately led to the discovery of more than 200 videos of Benavides
having sex with the women as well as directing them what to say and how to act on video. The
State ultimately charged Benavides with six counts of continuous trafficking of persons. At trial,
the jury heard testimony from several witnesses, including Bexar County detectives and
investigators, a clinical psychologist, and six women who alleged Benavides forced them to have
sex with him in exchange for legal services. The State also introduced the videos, which Benavides
had labeled by date, name, and sexual act, and stored at his home. After the jury found Benavides
guilty on all six counts and assessed punishment at eighty years’ confinement for each count, the
trial court signed a judgment consistent with the jury’s verdict. Benavides appealed.
ANALYSIS
Admission of Dr. Pierce’s Testimony
In his first issue, Benavides argues the trial court erred in admitting testimony from the
State’s expert, Dr. Aaron Pierce, that two of the six complainants exhibited symptoms of human
trafficking because such testimony was conclusory, speculative, and invaded the province of the
jury. The State responds that Dr. Pierce’s testimony was properly admitted because Dr. Pierce
was qualified to express an opinion as to the characteristics of sexual assault victims. The State
-2-

04-18-00273-CR

also argues that even if the testimony was inadmissible, the admission of the testimony was
harmless error.
Standard of Review
We review a trial court’s decision to admit or exclude evidence for an abuse of discretion.
Rhomer v. State, 569 S.W.3d 664, 669 (Tex. Crim. App. 2019). An abuse of discretion occurs
only if the trial court acts “arbitrarily or unreasonably” or “without reference to any guiding rules
and principles.” State v. Hill, 499 S.W.3d 853, 865 (Tex. Crim. App. 2016). We may not reverse
the trial court’s ruling unless the determination “falls outside the zone of reasonable
disagreement.” Johnson v. State, 490 S.W.3d 895, 908 (Tex. Crim. App. 2016). An evidentiary
ruling will be upheld if it is correct on any theory of law applicable to the case. De La Paz v. State,
279 S.W.3d 336, 344 (Tex. Crim. App. 2009).
Applicable Law
“To be admissible, expert testimony must assist the trier of fact.” Schutz v. State, 957
S.W.2d 52, 59 (Tex. Crim. App. 1997) (internal quotations omitted); see TEX. R. EVID. 702. When
the jury is not qualified to “the best possible degree” to determine a particular issue intelligently,
expert testimony is helpful. Schutz, 957 S.W.2d at 59. Expert testimony is not helpful, however,
if it constitutes “a direct opinion on the truthfulness” of a complainant’s allegations.” Id. “[T]here
is a ‘fine but essential line’ between helpful expert testimony and impermissible comments on
credibility.” Id. (quoting State v. Myers, 382 N.W.3d 91, 98 (Iowa 1986)).
Application
The State called Dr. Pierce, a psychologist with more than twenty years of experience in
treating sex offenders and victims, to testify about grooming behaviors and that victims of sexual
abuse may respond differently than a layperson would expect. On direct examination, Dr. Pierce
testified that offenders typically groom their victims by developing a relationship with them so
-3-

04-18-00273-CR

that when the crime is committed, the victim is more likely to keep it a secret. According to Dr.
Pierce, offenders are often in a position of power and can coerce victims “to go along with it” by
using emotional force. Dr. Pierce added an attorney would “certainly” have power over a client
due to an attorney’s knowledge of the legal system. When asked about human trafficking, Dr.
Pierce testified human traffickers often look for people who are “exceptionally weak” and easy to
control, making them less likely to report a crime. For these reasons, Dr. Pierce explained, human
trafficking victims, like sexual abuse victims, feel embarrassed, guilty, and fear their offender will
retaliate against them if they report the crime.
On cross-examination, defense counsel vigorously challenged Dr. Pierce’s credibility by
pointing out he had not interviewed Benavides or any of the complainants. In response, the State
elicited testimony that Dr. Pierce was present when two of the complainants testified and was able
to observe their demeanor and mannerisms. The State then asked whether he believed the two
complainants exhibited typical symptoms of human trafficking victims. The trial court overruled
Benavides’s timely objection, and Dr. Pierce testified that both complainants displayed themselves
in ways consistent with sexual abuse and human trafficking victims he had examined. He further
added that based on his experience and the literature, people respond in a variety of different—
and sometimes unpredictable—ways to being sexually assaulted.
Benavides does not dispute that Dr. Pierce was qualified to testify as an expert. Rather, he
argues Dr. Pierce’s testimony was conclusory and speculative because it was “tantamount to
testifying that the women were being truthful in their testimony.” We disagree. Dr. Pierce’s
testimony drew no conclusions and made no speculation as to the two complainants’ truthfulness.
Dr. Pierce simply was not asked his opinion of the two complainants’ credibility. Rather, he spoke
generally about whether the two complainants demonstrated behaviors of human trafficking
victims. See DeLeon v. State, 322 S.W.3d 375, 382–83 (Tex. App.—Houston [14th Dist.] 2010,
-4-

04-18-00273-CR

pet. ref’d) (holding expert’s statements that complainant exhibited behavior similar to sexually
abused child was admissible and not comment on truthfulness). Because, inter alia, the State
offered this testimony to rebut Benavides’s attempts to discredit Dr. Pierce on the basis that he
lacked personal knowledge of the two complainants or Benavides, we cannot say that the trial
court abused its discretion in admitting Dr. Pierce’s testimony.
Even assuming the trial court erred in overruling Benavides’s objections, any error must
be disregarded unless it affected Benavides’s substantial rights. See TEX. R. APP. P. 44.2(b). A
substantial right is affected when the error had a substantial and injurious effect or influence in
determining the jury’s verdict. King v. State, 953 S.W.2d 266, 271 (Tex. Crim. App. 1997). The
erroneous admission of evidence does not require reversal if, after examining the record as a whole,
we have a fair assurance that the error did not influence the jury or had but a slight effect. Taylor
v. State, 268 S.W.3d 571, 592 (Tex. Crim. App. 2008).
After examining the record as a whole, we conclude that the admission of Dr. Pierce’s
testimony did not have a substantial or injurious effect or influence on the jury. See King, 953
S.W.3d at 271. Here, the jury heard testimony from the two complainants that Benavides was their
lawyer and he made them have sex with him multiple times in exchange for legal services. The
jury also saw video excerpts of the sexual encounters between Benavides and the two
complainants. Moreover, the trial court instructed the jurors that they were the “exclusive judges
of the facts provided, of the credibility of the witnesses, and of the weight to be given to the
testimony.” See Hutch v. State, 922 S.W.2d 166, 170 (Tex. Crim. App. 1996) (noting that absent
evidence to contrary, we presume jury followed instructions provided in charge). We therefore
overrule Benavides’s first issue.

-5-

04-18-00273-CR

Mistrial
Benavides next argues the trial court erred in denying his motion for mistrial when one of
the jurors fainted following the presentation of video evidence. According to Benavides, the
juror’s reaction was unduly prejudicial and deprived him of his right to a fair trial by an impartial
jury. In response, the State argues that Benavides inadequately briefed this issue and therefore
waived it. Because Benavides provides some argument to support this issue with appropriate
citations to authorities and to the record, we will address it. See TEX. R. APP. P. 38.1(i).
Standard of Review
We review a trial court’s decision to deny a motion for mistrial for abuse of discretion, and
we will not reverse that decision unless it was outside the “zone of reasonable disagreement.”
Coble v. State, 330 S.W.3d 253, 292 (Tex. Crim. App. 2010). A mistrial is appropriate where
“error is so prejudicial that expenditure of further time and expense would be wasteful and futile.”
Ladd v. State, 3 S.W.3d 547, 567 (Tex. Crim. App. 1999). “The determination of whether a given
error necessitates a mistrial must be made by examining the particular facts of the case.” Id.
Application
On the first day of trial, the trial court admitted State’s Exhibit 32 (“SX32”), a graphic
video of Benavides having sex with one of the complainants. As the State played the video for the
jury, the bailiff informed the trial court that the jurors needed a break. The trial court granted the
request, and as the bailiff led the jurors out of the courtroom, Juror 8 fainted. After Juror 8
recuperated, the jurors went back into the courtroom. The trial court then excused the jury and
explained for the record: “About three minutes into the video, the Bailiff indicated to the Court
that the jurors needed a break, as the Court granted. As the jurors were being led out to the jury
room, a female juror fainted in the hall and she was given time to recuperate.” Benavides moved
for a mistrial, arguing Juror 8’s “strong reaction to the videos” was “unduly prejudicial.” After
-6-

04-18-00273-CR

questioning outside the presence of the remaining jurors, the trial court excused Juror 8 from the
courtroom and asked defense counsel if there was any objection to dismissing Juror 8 and replacing
her with an alternate juror. Defense counsel did not object, and the trial court dismissed Juror 8.
On appeal, Benavides argues Juror 8’s reaction to SX32 “increased [the other jurors’]
perception that the video they witnessed was shocking and/or offensive.” Even if it did, however,
a mistrial would not be warranted unless Benavides could show a reasonable probability that Juror
8’s reaction actually interfered with the jury’s verdict. See Coble, 330 S.W.3d at 292 (applying
rule in context of outburst from bystander and witness that interfered with normal proceedings of
trial). For instance, in a case where a juror became physically ill and asked to lie down after
viewing autopsy photographs, our sister court concluded the juror’s reaction “was not so
emotionally inflammatory as to prejudice the jury.” Edwards v. State, 106 S.W.3d 833, 838 (Tex.
App.—Dallas 2003, pet. ref’d). There, the trial court appropriately recessed and ensured the juror
had recovered before proceeding. Id. at 839. Here, the trial court also granted the jurors a break
when they needed one and replaced Juror 8 with an alternate juror when it determined Juror 8
could not continue. See id. Like the defendant in Edwards, Benavides moved for a mistrial but
did not request a curative instruction, object to the trial court’s replacement of Juror 8 with an
alternate juror, or explain to the trial court how Juror 8’s reaction actually prejudiced the rest of
the jury. See id. Accordingly, we conclude the trial court did not abuse its discretion in refusing
to grant a mistrial. We overrule Benavides’s second issue.
Accomplice Witness Immunity Instruction
Benavides contends the trial court erred in denying his request for an accomplice witness
immunity instruction. According to Benavides, the trial court should have instructed the jury that
each of the complainants secured immunity from prosecution in exchange for their testimony
because the outcome of the case depended on the jury’s assessment of the credibility of these
-7-

04-18-00273-CR

witnesses. In response, the State argues Benavides failed to timely request this instruction or to
demonstrate how he was entitled to it.
Standard of Review
We review the trial court’s denial of a requested jury instruction for an abuse of discretion.
See Threadgill v. State, 146 S.W.3d 654, 666 (Tex. Crim. App. 2004). When reviewing a trial
court’s decision to refuse a requested defensive instruction, we view the evidence in the light most
favorable to the defendant’s requested submission. Bufkin v. State, 207 S.W.3d 779, 782 (Tex.
Crim. App. 2006).
Applicable Law
“Under Texas law, the judge must provide the jury with a written charge distinctly setting
forth the law applicable to the case; not expressing any opinion as to the weight of the evidence,
not summing up the testimony, discussing the facts or using any argument in his charge calculated
to arouse the sympathy or excite the passions of the jury.” Walters v. State, 247 S.W.3d 204, 208
(Tex. Crim. App. 2007) (internal quotations omitted). A trial judge must instruct the jury on
statutory defenses, affirmative defenses, and justifications when such matters are raised by the
evidence. Id.
Before the formal charge conference, Benavides requested a “Section 28.04 [sic]
accomplice witness, testimony of immunity” instruction. Section 20A.04 of the Texas Penal Code
provides that a party to an offense may not be prosecuted for any offense about which she is
required to testify. TEX. PENAL CODE. ANN. § 20A.04. The statute further provides that such
“testimony may not be used against the party in any adjudicatory proceedings, except a prosecution
for aggravated perjury.” Id.

-8-

04-18-00273-CR

Application
Benavides essentially asks us to require a trial court to include an instruction on immunity
which the jury could use to discredit the complainants’ testimony. We decline to do so. Benavides
does not point to any controlling authority supporting such a requirement, and we have not
identified a sound basis for such an instruction. First, as our sister court has recognized, a grant of
immunity does not necessarily discredit a witness’s testimony. See Jester v. State, 62 S.W.3d 851,
855–56 (Tex. App.—Texarkana 2001, pet. ref’d) (holding no error when trial court declined to
instruct jury that witness who was granted immunity was accomplice as matter of law). Second,
unlike the accomplice witness instruction outlined in article 38.14 of the Texas Code of Criminal
Procedure, which ensures a defendant’s conviction is not based solely on uncorroborated
accomplice testimony, section 20A.04 protects trafficking victims by granting them immunity,
inducing them to testify when their testimony may inculpate them. See TEX. CODE. CRIM. PRO.
ANN. art. 38.14; Jester, 62 S.W.3d at 855–56. To require a section 20A.04 instruction for the sole
purpose of discrediting a witness would violate longstanding Texas law prohibiting trial courts
from commenting on the credibility of witnesses. See Russell v. State, 749 S.W.2d 77, 78 (Tex.
Crim. App. 1988) (“It has long been held that it is reversible error for the trial court to give
instructions that refer to the credibility of the witnesses.”). Accordingly, we hold the trial court
did not err by denying Benavides’s request for an accomplice witness immunity instruction. We
therefore overrule this issue.
Section 20A.03 of the Texas Penal Code
Finally, Benavides asserts that section 20A.03 of the Texas Penal Code is
unconstitutionally vague as applied to him. Specifically, he argues the term “human trafficking”
is ambiguous and turns his incidental action of driving each woman to the motel where they were
forced to have sex into the offense of “continuous trafficking.” Benavides argues this application
-9-

04-18-00273-CR

departs from the traditional understanding of “human trafficking” and is contrary to the
Legislature’s intent.
The State responds that the statute is not unconstitutionally vague because it clearly
prohibits Benavides’s conduct of transporting women to a new location and forcing them to have
sex. The State contends that even though Benavides’s conduct may not seem like a “common
form[] of human trafficking such as smuggling [a] person[] into the United States from another
country to force them into various forms of labor,” the statute’s language is sufficiently clear to
provide a person of ordinary intelligence a reasonable opportunity to know what conduct is
prohibited.
Standard of Review
Whether a statute is constitutional is a question of law we review de novo. Ex parte Lo,
424 S.W.3d 10, 14 (Tex. Crim. App. 2013). We begin our review of the constitutionality of a
statute with the presumption that the statute is valid and assume the Legislature did not act
arbitrarily and unreasonably in enacting the statute. Rodriguez v. State, 93 S.W.3d 60, 69 (Tex.
Crim. App. 2002). “If we can determine a reasonable construction that will render the statute
constitutional, we must uphold the statute.” Ex parte Zavala, 421 S.W.3d 227, 231 (Tex. App.—
San Antonio 2013, pet ref’d). The burden rests upon the party who challenges the statute to
establish its unconstitutionality. Rodriguez, 93 S.W.3d at 69.
Applicable Law
A statute is unconstitutionally vague if its prohibitions are not clearly defined. Wagner v.
State, 539 S.W.3d 298, 313 (Tex. Crim. App. 2018). A statute must provide a person of ordinary
intelligence a reasonable opportunity to understand what conduct it prohibits. Id. at 314. A statute
is not unconstitutionally vague merely because the words or terms used are not specifically
defined. Id. The words or terms must be read in context, and we must construe the statute in
- 10 -

04-18-00273-CR

accordance with the rules of grammar and common usage. Id. “A statute satisfies vagueness
requirements if the statutory language conveys sufficiently definite warning as to the proscribed
conduct when measured by common understanding and practices.” Id. (internal quotations
omitted). In addressing an as applied challenge, we will consider whether the statute is vague as
applied to the defendant’s conduct. Id.
Application
Under section 20A.03 of the Penal Code, a person commits continuous trafficking of
persons “if, during a period that is 30 or more days in duration, the person engages two or more
times in conduct that constitutes an offense under Section 20A.02 [trafficking of persons] against
one or more victims.” TEX. PENAL CODE § 20A.03(a). Section 20A.02 provides that a person
commits the offense of trafficking of persons if the person knowingly “traffics another person
with the intent that the trafficked person engage in forced labor or services.” Id. § 20A.02(a)(1).
The statute further defines “traffic” to mean “transport, entice, recruit, harbor, provide, or
otherwise obtain another person by any means.” Id. § 20A.01(4).
When construing these sections in accordance with the rules of grammar and common
usage, the statute clearly prohibits a person from transporting another person with the intent that
the transported person engage in forced services more than once in a 30-day period. See id.
§ 20A.03(a); Wagner, 539 S.W.3d at 314. The Legislature defined the term “traffic” to include
transporting a person, specifically defining what conduct constitutes “traffic” under section
20A.03(a). See TEX. GOV’T CODE ANN. § 311.011(a)(b) (mandating words and phrases with
legislative definitions shall be construed accordingly). An act like driving falls within the plain
meaning of the term “transport.” See Ritz v. State, 533 S.W.3d 302, 309 (Tex. Crim. App. 2017)
(Newell, J., concurring) (pointing out evidence that defendant drove minor to and from his home
to have sex constituted evidence of “transporting” under continuous trafficking statute). Based on
- 11 -

04-18-00273-CR

the plain text of the statute, a person of ordinary intelligence is placed on notice that driving another
person with the intent to force the other person to engage in prostitution more than once during a
period of 30 days constitutes the offense of continuous trafficking. See Wagner, 539 S.W.3d at
314. This construction is reasonable and is consistent with our belief that the Legislature did not
act unreasonably in including the driving of another person to a location with the intent to force
that person to engage in sex in the definition of trafficking. See Wagner, 539 S.W.3d at 314; Ritz,
533 S.W.3d at 309.
Here, the evidence shows Benavides drove women to a motel where he forced them to have
sex with him in exchange for his legal services. The record further reflects Benavides repeated
this behavior more than once over the course of 30 days. This conduct is prohibited under the
plain text of the continuous trafficking statute, and this result is not an absurd one. See Wagner,
539 S.W.3d at 314; Ritz, 533 S.W.3d at 309. Because Benavides failed to show that the continuous
trafficking statute is unconstitutionally vague as applied to him, we overrule his final challenge.
CONCLUSION
For the foregoing reasons, we affirm the trial court’s judgment of conviction.
Beth Watkins, Justice
DO NOT PUBLISH

- 12 -

Fourth Court of Appeals
San Antonio, Texas
JUDGMENT
No. 04-18-00273-CR
Mark Henry BENAVIDES,
Appellant
v.
The STATE of Texas,
Appellee
From the 186th Judicial District Court, Bexar County, Texas
Trial Court No. 2017CR7193
Honorable Dick Alcala, Judge Presiding
BEFORE CHIEF JUSTICE MARION, JUSTICE CHAPA, AND JUSTICE WATKINS
In accordance with this court’s opinion of this date, the judgment of the trial court is
AFFIRMED.
SIGNED October 30, 2019.
_____________________________
Beth Watkins, Justice

APPENDIX C
TEXAS PENAL CODE
SECTION 20A.03

Appendix I - 2

PENAL CODE
TITLE 5. OFFENSES AGAINST THE PERSON
CHAPTER 20A. TRAFFICKING OF PERSONS
Sec. 20A.03. CONTINUOUS TRAFFICKING OF PERSONS.
(a) A person commits an offense if, during a period that is 30 or more days in duration, the
person engages two or more times in conduct that constitutes an offense under Section
20A.02 against one or more victims.
(b) If a jury is the trier of fact, members of the jury are not required to agree unanimously on
which specific conduct engaged in by the defendant constituted an offense under Section
20A.02 oron which exact date the defendant engaged in that conduct. The jury must
agree unanimously that the defendant, during a period that is 30 or more days in duration,
engaged in conduct that constituted an offense under Section 20A.02.
(c) If the victim of an offense under Subsection (a) is the same victim as a victim of an offense
under Section 20A.02, a defendant may not be convicted of the offense under Section
20A.02 in the same criminal action as the offense under Subsection (a), unless the offense
under Section 20A.02:
(1) is charged in the alternative;
(2) occurred outside the period in which the offense alleged under Subsection (a) was
committed; or
(3) is considered by the trier of fact to be a lesser included offense of the offense alleged
under Subsection (a).
(d) A defendant may not be charged with more than one count under Subsection (a) if all of the
conduct that constitutes an offense under Section 20A.02 is alleged to have been
committed against the same victim.
(e) An offense under this section is a felony of the first degree, punishable by imprisonment in
the Texas Department of Criminal Justice for life or for any term of not more than 99
years or less than 25 years.
Added by Acts 2011, 82nd Leg., R.S., Ch. 122 (H.B. 3000), Sec. 1, eff. September 1, 2011.
Amended by
Acts 2015, 84th Leg., R.S., Ch. 332 (H.B. 10), Sec. 12, eff. September 1, 2015.

